HHS/OIG-Audit--"Review of Partial Hospitalization Services Provided Through Community Mental Health Centers,
(A-04-98-02146)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Partial Hospitalization Services Provided Through Community Mental Health Centers," (A-04-98-02146)
October 5, 1998
Complete
Text of Report is available in PDF format (1.73 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report summarizes the results of reviews of partial hospitalization program (PHP) services provided at 14 community
mental health centers (CMHC) in Florida and Pennsylvania. The reviews (performed jointly by staff from the OIG and HCFA)
showed that in the 14 facilities; (1) certification requirements for qualifying as a CMHC were not always met, (2) most
beneficiaries were found to be ineligible for PHP services, (3) many of the services provided to beneficiaries were not
reasonable and necessary, and (4) provider cost reports contained costs that were not always allowable, reasonable, and
necessary. As a result, improper payments to the 14 facilities totaled more than $31 million. Recommendations call for
tightening requirements for CMHC certification, detailed review (including review of medical records) by the fiscal intermediary
of the first claim for each new beneficiary receiving PHP services, and improvements to the cost reporting process. The
HCFA generally concurred with these recommendations. The HCFA has also suspended Medicare payments to the 14 facilities
and terminated the provider numbers of 10 facilities.